                                                     NATIONAL SCIENCE FOUNDATION                          !
                                                      OFFICE OF INSPECTOR GENERAL                         I
                                                       OFFICE OF INVESTIGATIONS
                                                                                                          I

                                               CLOSEOUT MEMORANDUM                                            1




11   Case Nbmber: 1-03-07-0030
                                                                                      11           Page l"of 1



          The Office of Inspector General (OIG) received information that a grant recipient1had misrdanaged
          National Science Foundation (NSF) grant funds. The complainant stated that the NSF grant was
          awarded for the recipient to operate an after-school facilig to teach and promote science to children.
          The complainant stated that there were only six children attendingthe facility. The complainant also
          claimed that the PI had spent grant funds on expensive equipment, salaries, and international travel.

          A review of the grant recipient's financial records, a visit to the recipient's after-school facility, and
          an interview of the PI disclosed that many children were attending the facility, all NSF funds spent
          on equipment and salaries were in accordance with the proposed budget, and no NSF funds had been
          spent on international travel.

          Accordingly, this case is closed.


              I



                                                                                                                  I,




                  I                                                                                                1




                  I                                                                                                    I


                      I


                      I



                      I                                                                                                I



                                                                                                                           I

                          k




                              I


                              I                                                                                            II

                              I                                                                                                I



                                  1                                                                                            1




I'                                                                                                                                 I


 NSF OIG Form 2 (1 1/02)
